No. 20-1790

IN THE
Supreme Court of the Mnited States

ALSTON CAMPBELL, JR.,
Petitioner,

v.

UNITED STATES OF AMERICA,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Eighth Circuit

CERTIFICATE OF SERVICE

The undersigned certifies that he has this 30th day of June 2021, caused one copy
of the foregoing Blanket Consent of Petitioner to be served on the below-named
counsel by first-class mail, postage prepaid, and further certifies that all persons
required to be served have been served:

Elizabeth B. Prelogar

Acting Solicitor General

United States Department of Justice

950 Pennsylvania Avenue NW

Washington, D.C. 20530-0001

SupremeCtBriefs@USDOJ.gov

Gregory J. DuBoff
Counsel for Petitioner
